WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-5121

Ben Young Crescent Management, LLC et. al.
(Petitioner) V. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Iam filing this waiver on behalf of all respondents.

Oo Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© Jam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:

Date: 8/9/21

(Type or print) Name Anthony J. Ferate

© wr. O Ms. O mrs. O Miss

Firm Spencer Fane LLP

Address 9400 North Broadway Extension, Suite 600

City & State | Oklahoma City, OK Zip 73114
Phone 405-844-9900 Email ajferate@spencerfane.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Mr. Ben Young
808 Woodway Lane
Richardson, TX 75081
